HHS/OIG, Audit -"Review of Medicaid School-Based Services in Kansas-Bundled Rate
Development,"(A-07-05-01018)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid School-Based Services in Kansas-Bundled Rate Development," (A-07-05-01018)
June 16, 2006
Complete
Text of Report is available in PDF format (548 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Kansas developed the payment rates for Medicaid school-based
health services pursuant to Federal requirements and the State plan.  Kansas did not
develop the payment rates for Medicaid school-based health services pursuant to Federal requirements
and the State plan.  Kansas used incorrect indirect cost rates and service utilization
data to develop the payment rates.  The payments to school districts for FYs 1998-2003
were incorrect, and Kansas received $18.5 million of overpayments.
We recommended that Kansas refund $18.5 million to the Federal Government, calculate and
refund all overpayments that occurred subsequent to our audit period, and develop and implement
adequate internal controls to ensure that future Federal claims for school-based services
are consistent with Federal requirements and the State plan.  In its comments on our
draft report, Kansas concurred with the findings and two of the recommendations.  Kansas
did not address our recommendation to calculate and refund all overpayments that occurred
subsequent to our audit period.